           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     UNIVERSITIES’ USE OF SOCIAL
    SECURITY NUMBERS AS STUDENT
       IDENTIFIERS IN REGION III

    April 2005    A-13-05-15083




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY

MEMORANDUM

Date:   April 26, 2005                                                                     Refer To:

To:     Laurie Watkins
        Regional Commissioner
         Philadelphia

From:   Inspector General

Subject:Universities’ Use of Social Security Numbers as Student Identifiers in Region III
        (A-13-05-15083)


        OBJECTIVE

        Our objective was to assess universities’ use of Social Security numbers (SSN) as
        student identifiers and the potential risks associated with such use.

        BACKGROUND

        Millions of students enroll in educational institutions each year. To assist in this
        process, many colleges and universities use students’ SSNs as personal identifiers.
        The American Association of Collegiate Registrars and Admissions Officers found that
        almost half of member institutions that responded to a 2002 survey used SSNs as the
        primary student identifier.1 Although no single Federal law regulates overall use and
        disclosure of SSNs by colleges and universities, the Privacy Act of 1974, the Family
        Educational Rights and Privacy Act, and the Social Security Act contain provisions that
        govern disclosure and use of SSNs. See Appendix A for more information on the
        specific provisions of these laws.

        We selected a sample of 12 universities2 in Region III.3 For each selected university,
        we interviewed university personnel and reviewed school policies and practices for
        using SSNs. See Appendices B and C for additional details regarding the scope and
        methodology of our review and a list of the universities we contacted, respectively.




        1
          Academic Transcripts and Records: Survey of Current Practices, April 2002 Special Report, the
        American Association of Collegiate Registrars and Admissions Officers.
        2
          The term “universities” will be used to include both colleges and universities.
        3
          Region III consists of: Delaware, Maryland, Pennsylvania, Virginia, West Virginia and the District of
        Columbia.
Page 2 – Laurie Watkins

We are conducting a nation-wide review in each of the Social Security Administration’s
(SSA) 10 regions and will issue separate reports to each Regional Commissioner.

RESULTS OF REVIEW
During our review, all 12 of the universities reported taking steps or making plans to limit
SSN use. For example, none of the 12 universities displayed the SSNs on students’
identification cards. However, at the time of our review, 5 of the 12 universities used the
SSN as the primary student identifier. As such, students at these five universities may
have been subject to a higher potential for identity theft and fraud. We identified
incidences of identity theft at two of these universities. A third university experienced a
break-in of a computer system containing SSN information. Further, 2 of the 12
universities used postcards for prospective students that requested SSN information.
The unnecessary use of SSNs increased the potential for individuals to illegitimately
gain access to these numbers and misuse them, thus creating SSN integrity issues.

UNIVERSITIES REPORT TAKING STEPS OR MAKING PLANS TO LIMIT SSN USE

All 12 of the universities reported taking steps or making plans to limit using SSNs as
student identifiers. While we found the universities’ admission applications4 requested
students’ SSNs, the universities reported this information was needed for financial aid
applications and payroll. However, none of the 12 universities displayed the SSNs on
students’ identification cards.

Of the 12 universities reviewed, 7 reported assigning their students alternate
identification numbers. Students, faculty, and staff use these numbers for most
university transactions. Students’ SSNs remain in the universities’ databases as
secondary identifiers. The institutions exercised limited use of the students’ SSNs. For
example, the seven universities used SSNs when it was necessary to verify students’
identities, process financial aid applications, and report wages of student employees.
The remaining five universities reported plans to assign their students alternate
identification numbers in the future.

Further, 4 of the 12 universities had taken actions to decrease the risk of improper SSN
disclosure. These universities required that personnel handling documents containing
confidential information sign a disclosure statement (see Appendix D). Some of the
documents we reviewed contained references to the Family Educational Rights and
Privacy Act and the fact that the handler of such documents may be subject to criminal
prosecution and civil penalties, as well as disciplinary action by their employer if they
improperly disclose confidential information. We believe the use of disclosure
statements can decrease the risk of improper disclosure of SSNs. The remaining eight
universities did not report use of disclosure statements.




4
    Admission applications refer to applications available in the traditional paper or electronic formats.
Page 3 – Laurie Watkins


SOME UNIVERSITIES USED SSNs AS PRIMARY STUDENT IDENTIFIER

We found that 5 of the 12 universities used the SSN as the primary student identifier.
As such, students at these universities may have been subject to a higher potential for
identity theft and fraud. These five universities used SSNs for a variety of purposes.
For example, we found four universities used students’ SSNs for class registration and
displayed students’ SSNs on class rosters. In addition, one university displayed
students’ SSNs on grade reports, two universities used the SSN for student “computer
log-ons,”5 and three universities displayed the SSN on unofficial transcripts.
Further, one university incorporated students’ SSNs in the coding used for identification
cards. Using specialized equipment, persons not authorized to access students’
information may be able to identify students’ SSNs in the coding.

For these types of activities, the universities could use other means to identify students.
For example, they could use an alternate student identification number, as we noted is
being done at other universities. Using an alternate identifier could reduce the risk of
unauthorized disclosure of SSNs. Officials at the five universities indicated the SSN
was used as the primary student identifier because of computer system requirements,
common historical practice, convenience, and identity verification. Officials at all five
universities reported plans to reduce use of the SSN, where possible, within the next
2 years. The universities plan to use an alternate number as the primary student
identifier.

Several states have enacted laws that place certain restrictions on universities’ use of
SSNs.6 However, in states without such laws, universities should limit their collection
and use of student SSNs to minimize the potential for SSN misuse.

POTENTIAL RISKS ASSOCIATED WITH COLLECTING AND USING SSNs

Universities’ collection and use of SSNs can increase the risk of identity theft and fraud.
Each time an individual divulges his or her SSN, the potential for a thief to illegitimately
gain access to bank accounts, credit cards, driving records, tax and employment
histories and other private information increases. Because many universities still use
SSNs as the primary student identifier, students’ exposure to identity theft and fraud
remains. During our review, we identified incidences of identity theft that occurred at
two universities. A computer system containing SSN information was compromised at a
third university. In addition, we found two universities used postcards requesting SSN
information for prospective students.

At one of the five universities that used the SSN as the primary student identifier, an
employee was arrested and charged with six counts of identity theft.


5
  A computer log-on is used to establish communication and initiate interaction with a time-shared
computer or network.
6
  Arizona, New York, Maryland, Rhode Island and Wisconsin are among those states that have enacted
laws impacting college and university SSN use.
Page 4 – Laurie Watkins

In September 2004, local police reported this employee worked in the office handling
students’ registrations and allegedly used that access to collect student information.
Police further alleged the employee provided students’ personal information to an
accomplice. An university official acknowledged the employee copied personal
information, such as SSNs and credit card numbers. Ultimately, the employee and
accomplice were allegedly able to wire themselves cash using the credit card accounts
of at least six people. Although we did not determine the extent unauthorized disclosure
of students’ SSNs contributed to this incident, such disclosures can contribute to identity
theft, fraud or other illegal activities associated with SSN misuse.

The second incident involved identity theft by a student who allegedly obtained
instructors’ SSNs to change her grade. An university official reported a student
purchased online the SSNs of two teachers and posed as the teachers to change failing
grades. The university’s website indicated the student “…posed as an instructor who
wanted to change her password over the phone. She played on the good graces of a
university staff member, who, trying to be helpful made the change, thus enabling the
student to assume a faculty identity and attempt to change her information in two
courses. In another instance, she guessed a faculty member’s password and attempted
to make a grade change.” Although we did not determine the extent university policies
concerning the use of instructors’ SSNs contributed to this matter, this incident
demonstrates the potential harm that can occur when SSNs are used to commit identity
theft.

After we completed our work at the schools, one university reported computer data had
been compromised. Information on the university’s website indicated computer hackers
illegally accessed a server containing information relating to identification (ID) cards.
The ID server contained names, photographs, ID numbers, and SSNs for all individuals
who had university identification cards. A university official confirmed that, when the
compromise was discovered, the ID server was immediately disconnected from the
network. The universities’ website indicated no illegal use had occurred, but the data on
the server could be used for identity theft. This incident underscores the need for
universities to make every attempt to secure students’ SSNs.

We also identified a data collection condition that increased the risk of unauthorized
disclosure of SSNs. We found two universities used postcards for prospective students
that requested SSN information (see Exhibit 1). Both postcards indicated the SSN was
optional.

One postcard used a fold-over security flap to prevent viewing. An university official told
us this measure was taken in response to students’ concerns of identity theft. However,
the location of the adhesive seal allowed the prospective students’ information to be
viewed by pushing the ends of the card together. The other postcard made no attempt
to prevent viewing of prospective students’ information. Information on both postcards
could be viewed by anyone handling the correspondence. If prospective students
entered SSNs on the postcards, the SSN and other personal information would be at-
risk of unauthorized disclosure.
Page 5 – Laurie Watkins


       Exhibit 1: Information on Postcard Requesting Student SSN

PLEASE PRINT

DATE _________________ _________ SS# (optional) _______________________ BIRTHDATE __________________
NAME (LAST) _____________________________________ (FIRST) ______________________________ (MI) __________
ADDRESS ____________________________________________________________________________________________
CITY/STATE _____________________________________________________________ ZIP _______________________
E-MAIL ADDRESS ____________________________________________________________________________________
HIGH SCHOOL _____________________________________ YEAR OF HS GRADUATION ___________________
COLLEGE MAJOR ____________________________________________________________________________________

        2-YEAR                4-YEAR              SKILL-SET                ONE-YEAR CERTIFICATE

HOME TELEPHONE         ______________________________________   COUNTY       _________________________________

ETHNICITY (optional)      White, non-Hispanic    American Indian or Alaskan Native     Black, non Hispanic

                          Asian or Pacific Islander Hispanic     Other
_________________________________________________________________________________________________________
_________________________________________________________________________________________________________

TRANSFER STUDENT ONLY
INSTITUTION(S) ATTENDED ________________________________________________________________________________




CONCLUSION AND RECOMMENDATIONS
Despite the potential risks associated with using SSNs as primary student identifiers,
many universities continue this practice. Universities’ collection and use of SSNs can
increase the risk of SSN misuse, identity theft, and fraud. We recognize the Agency’s
challenge of educating such a large number of universities to the potential risks that
exist when SSNs are collected and used. However, given the potential threats to SSN
integrity, such a challenge should not discourage SSA from taking appropriate and
feasible steps to safeguard SSNs. Given the potential risks for SSN misuse and identity
theft, we believe SSA can better safeguard SSN integrity by educating universities
about unnecessary SSN use.
Page 6 – Laurie Watkins

Accordingly, we recommend that the Regional Commissioner:

1. Extend outreach efforts when possible through public information sources such as
   the regional website, pamphlets, etc., to encourage universities to limit their
   collection and use of SSNs.

2. Encourage universities to require a disclosure statement from employees
   acknowledging they understand the documents they review and use are confidential,
   and that improperly releasing confidential information could subject the employee to
   disciplinary and other legal actions.

3. Promote the best practices of universities that no longer use SSNs as primary
   student identifiers.

AGENCY COMMENTS
SSA agreed with the intent of all our recommendations and is taking corrective action.
The full text of SSA’s comments is included in Appendix E.




                                               S
                                               Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Federal Laws that Govern Disclosure and Use of the Social Security
             Number

APPENDIX B – Scope and Methodology

APPENDIX C – Educational Institutions Contacted

APPENDIX D – Information on Confidentiality Disclosure

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                                    Appendix A

Federal Laws that Govern Disclosure and Use of the
Social Security Number
The following Federal laws establish a general framework for disclosing and using the
Social Security number (SSN).

The Privacy Act of 1974 (5 U.S.C. § 552a; Pub. L. No. 93-579, §§ 7(a) and 7(b))
provides that it is unlawful for a State government agency to deny any person a right,
benefit, or privilege provided by law based on the individual’s refusal to disclose his/her
SSN, unless such disclosure was required to verify the individual’s identity under a
statute or regulation in effect before January 1, 1975. Further, under Section 7(b), a
State agency requesting that an individual disclose his/her SSN must inform the
individual whether the disclosure is voluntary or mandatory, by what statutory or other
authority the SSN is solicited, and what uses will be made of the SSN.

The Family Educational Rights and Privacy Act (FERPA) (20 U.S.C. § 1232g; 34 C.F.R.
Part 99) protects the privacy of student education records. FERPA applies to those
schools that receive funds under an applicable program of the U.S. Department of
Education. Under FERPA, an educational institution must have written permission from
the parent or eligible student to release any personally identifiable information (which
includes SSNs) from a student’s education record.1 FERPA does, however, provide
certain exceptions in which a school is allowed to disclose records without consent.
These exceptions include disclosure without consent to university personnel internally
who have a legitimate educational interest in the information, to officials of institutions
where the student is seeking to enroll/transfer, to parties to whom the student is
applying for financial aid, to the parent of a dependent student, to appropriate parties in
compliance with a judicial order or lawfully issued subpoena, or to health care providers
in the event of a health or safety emergency.

The Social Security Act provides that “Social Security account numbers and related
records that are obtained or maintained by authorized persons pursuant to any
provision of law, enacted on or after October 1, 1990, shall be confidential, and that no
authorized person shall disclose any such Social Security account number or related
record.” (42 U.S.C. § 405(c)(2)(C)(viii)). The Social Security Act also provides that
“[w]hoever discloses, uses, or compels the disclosure of the Social Security number of
any person in violation of the laws of the United States; shall be guilty of a felony…”
(42 U.S.C. § 408(a)(8)).




1
  FERPA gives parents certain rights with respect to their children’s education records. These rights
transfer to the child when the child reaches the age of 18 or attends an institution of postsecondary
education. Children that have been transferred these rights are referred to as “eligible students.”
                                                                        Appendix B

Scope and Methodology
To accomplish our objective, we:

•   selected 2 universities from each of the 5 States in Region III and Washington, DC—
    1 university with more than 15,000 students, and 1 university with fewer than
    15,000 students;

•   interviewed selected university personnel responsible for student
    admissions/registrations;

•   reviewed Internet websites of 12 colleges and universities we visited;

•   reviewed applicable laws and regulations; and

•   reviewed selected articles, reports and a study regarding universities’ use of
    Social Security numbers as student identifiers.

We visited 12 educational institutions and interviewed personnel to learn more about
their policies and practices for using Social Security numbers as student identifiers.
Our review of internal controls was limited to gaining an understanding of universities’
policies over the collection, protection and use/disclosure of Social Security numbers.
The Social Security Administration entity reviewed was the Office of the Deputy
Commissioner for Operations. We conducted our audit from September through
November 2004 in accordance with generally accepted government auditing standards.
                                                                                 Appendix C

Educational Institutions Contacted
We interviewed personnel at 12 educational institutions in Region III. The following
table shows the names and locations of these schools as well as their total student
enrollments.


                         Institution                          Location                  Student
                                                                                       Enrollment

    1      Delaware State University                Dover, Delaware                       3,367

    2      University of Delaware                   Newark, Delaware                     18,998

    3      Community College of Baltimore County    Baltimore, Maryland                  13,953

    4      Towson University                        Towson, Maryland                     16,705

    5      Shippensburg University                  Shippensburg, Pennsylvania            7,347

    6      Community College of Philadelphia        Philadelphia, Pennsylvania           18,537

    7      Fairmont State University                Fairmont, West Virginia               5,966

    8      West Virginia University                 Morgantown, West Virginia            22,201

    9      Lynchburg College                        Lynchburg, Virginia                   1,874

   10      George Mason University                  Fairfax, Virginia                    25,427

   11      Gallaudet University                     Washington, D.C.                      1,558

   12      Catholic University of America           Washington, D.C.                      4,473

Source: We determined student enrollment by reviewing university websites or the following website:
www.collegeboard.com/splash
                                                                                    Appendix D

Information on Confidentiality Disclosure

STUDENT WORKER STATEMENT OF UNDERSTANDING OF THE FAMILY
EDUCATIONAL RIGHTS AND PRIVACY ACT
I understand that by the virtue of my employment with the                    Office at
University, I may have access to records, which contain individually identifiable information, the
disclosure of which is prohibited by the Family Educational Rights and Privacy Act. I acknowledge that I
fully understand that the intentional disclosure by me of this information to any unauthorized person could
subject me to criminal and civil penalties imposed by law. I further acknowledge that such willful or
unauthorized disclosure also violates                              University’s policy and could constitute
just cause for disciplinary action including termination of my employment regardless of whether criminal
or civil penalties are imposed.




Date:                                    Student Worker’s Signature
                  Appendix E
Agency Comments
March 16, 2005


OIG DRAFT REPORT, USE OF SSNs AS STUDENT IDENTIFIERS IN THE
PHILADELPHIA REGION, AUDIT NO. 22004096 - INFORMATION


GENERAL COMMENTS:
Although the recommendations in the audit report resulted from practices of universities
in our region, it is clear that the use of SSNs as student identifiers is a concern
nationwide. We are also aware that a similar audit conducted in Region IV produced
nearly identical recommendations. It is unclear whether you will be consolidating all of
the regional audit reports into a national report, but we suggest that this be considered
to address our belief that full implementation of the recommendations will require
contacts and coordination beyond the regional level.


RECOMMENDATION 1:
Extend outreach efforts when possible through public information sources such as the
regional website, pamphlets, etc., to encourage universities to limit their collection and
use of SSNs.


COMMENTS:
In our ongoing contacts with local universities, we will continue to make them aware of
Social Security's goal of ending the use of the SSN as a student identifier. In the course
of our normal recruitment activities, we will include reminders to administration officials
that the SSN should not be used as a student identifier. In our upcoming national
recruitment conference call, we will suggest to all regions that this issue become a
standard part of our recruitment contacts. We will also include this topic in our Public
Affairs Specialists' portfolio for inclusion in appropriate settings.


RECOMMENDATION 2:
Encourage universities to require a disclosure statement from employees
acknowledging they understand the documents they review and use are confidential,
and that improperly releasing confidential information could subject the employee to
disciplinary and other legal actions.


COMMENTS:
While we agree with the recommendation, we believe that this should be dealt with on a
national level. Presumably, the Agency would want consistency among universities in

                                            E-1
 terms of standard language that should be included on a disclosure statement. At the
regional level we will suggest in our contacts with all employers that their employees be
made aware of the confidentiality issues involved whenever an SSN is part of a record.


RECOMMENDATION 3:
Promote the best practices of universities that no longer use SSNs as primary student
identifiers.


COMMENTS:
The draft report does indicate that most institutions are already moving in this direction.
A compilation of best practices would be most effective if we gather information from
universities across the country. The activity that is required to implement this
recommendation, to poll universities for their best practices and develop a mechanism
for promoting them, also appears to be a directive that would best be performed at a
national level. In the Philadelphia region we can begin this process by compiling a list of
experiences and suggestions from those universities who have made the transition from
use of the SSN to some other form of identification.


If members of your staff have any questions regarding these comments, they may
contact Carla White of the Center for Program Support at 215-597-1124.




                        /s/
                  Laurie Watkins




                                           E-2
                                                                        Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365


   Walter Bayer, Director, Mid-Atlantic Audit Division (215) 597-4080


   Randy Townsley, Audit Manager, General Management (410) 966-1039


   Michael Maloney, Audit Manager, Mid-Atlantic Audit Division (703) 578-8844


   Cylinda McCloud-Keal, Audit Manager, Mid-Atlantic Audit Division (215) 597-0572


Acknowledgments

In addition to those named above:


   Ehab Bestawrose, Senior Auditor


   Alan Carr, Senior Auditor


   Eugene Crist, Auditor


   Virginia Montelpare, Auditor


   Ellen Silvela, Auditor


   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at http://ww.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-13-05-15083
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
